                             CLOSEOUT FOR M91070029

            This case came to OIG on              1991, when we received a




                                            -
.b-a                          The first two subj
  4                        the third is at the




                                           , a ~rench researcher at
                       C




            University who had been a visitor at- a
   formed the core of the proposal and that the French researcher was
   not properly credited in the proposal.
        OIG wrote to the French researcher and requested more
   information from him to clarify the allegation of misconduct in
   science and to ascertain what evidence he could provide to support
   that allegation. When the French researcher did not reply to our
   letter, we telephoned him. He promised to send us the information
   we requested, but he did not. We then wrote to him setting a
   deadline for his response, but offering to extend the deadline if
   he needed more time to fashion an adequate reply. OIG lacks the
   information to pursue this case without the French researcher's
   cooperation, The deadline has passed and the French researcher has
   not replied. We therefore have no alternative but to close this
   case.
            This case is closed and no further action will be taken.




       Staff Scientist, Oversight
       Concurrence :




       Donald E. Buzzelli
       Deputy Assistant Inspector General for Oversight


                                    page 1 of 2
Assistant Inspector General for Oversight




L. Nancy Birnbaum
Assistant Counsel to the Inspector General


cc:   Signatories
      Inspector General




                           Page 2 of 2
